                  ADOLESCENTS AND STEROIDS:
                     A USER PERSPECWE




                       RICHARD P. KUSSEROW
                         INSPECTOR GENERAL




OEI-06-90-01081                               AUGUST 1990
                                   MECUTNE SUMMARY


PURPOSE

To describe adolescent steroid use from a user point of view; this includes use patterns
and trends, motivations and influences, effects, and awareness of health risks.

BACKGROUND

Anabolic-androgenic steroids ("steroids") are synthetic derivatives of the natural male
hormone testosterone. They were first used non-medically by elite athletes seeking to
improve performance. More recently, however, steroid use has filtered down to high
school and junior high school levels.



OEI contracted three experts1in the field of steroids to conduct confidential
structured interviews with former and current steroid users. They interviewed 67
respondents who began using steroids before leaving high school, and were not over
the age of 25 at the time of the interview. These plus five anonymous telephone
interviews completed by OEI resulted in a total of 72 interviews. The findings below
are based on this non-random sample of 72 steroid users.

FINDINGS

More Adolescents Are Using Steroids

Nearly all users say more senior high school students are using steroids now than when
they started. Male competitive athletes are the primary users.

Users Start Young and Continue Using for a Long Time

Over one-half of the respondents started using steroids by age 16. Nearly one-third of
the current users interviewed have been using steroids for five years or longer; on
average they started over three years ago.




   1
       See Appendix C: Acknowledgments.
Former Users Quit Because of Bad Effects They Experienced, Fear of Bad Effects,
and New Goals.

Former users (17) gave a number of reasons for quitting (some mentioning more than
one): eight experienced undesirable physical or psychological effects which they
attribute to steroids; eight were concerned about possible health risks; seven noted a
life change, such as not competing (or working out) any more, a change in goals, or a
job-related decision.

Prafiles Show Many Users Are Mainstream Students?

Because many steroid users are pursuing socially acceptable goals, they do not stand
out as belonging to a "drug subc~lture!~ As one interviewer reports, "By looking at
them you wouldn't know they were steroid users; in fact, if I didn't know, they look
like the kind of guys I'd like my daughter to date." This, plus the secretive nature of
steroid use, means that parents, coaches, peers, and even teammates may not know
that someone close to them is a user. As one user notes, "When I started I thought I
was the only one at my school, but once I got bigger others started talking about it!'




   2
       See Appendix k. Selected User Profiles for profiles of eight users.

                                                    iii
                          TABLE OF CONTENTS


EXECUTIVE SUMMARY     .........................................                               i-iii

INTRODUCTJON ...............................................                                    1

     PURPOSE ........................................                                           1

     BACKGROUND ..........................................                                      1

     MEMODOLOGY .........................................                                       1

FINDINGS ...................................................                                    2

     More Adolescents Are Using Steroids ..........................                             2
     Users Start Young and Continue Using for a Long Time ............                          2

     Adolescent Users Combine Steroids. Take Large Doses. and Use
           More intensely Over Tme ..............................                               3

                                                              .......
     Users Buy Steroids and Get Informationfrom Several Sources                                 5
     Typical Adolescent Concerns Motivate Users .....................                           6

     Resutts Encourage Continued Use ............................                               8

     Users Report Psychological..and Physical Changes After Starting
           Steroids, But Most Discount Warnings About Risks ........... 10

     Current Users Show Signs of Denial; Some Appear Dependent                 .......         12

     Former Users Quit Because of Bad Effects They Experienced. Fear of
          Bad Effects. and New Goals ... .-........................ 13

     Prafiles Show Many Users Are Mainstream Students           ...............                13


APPENDIX A: SELECTED USER PROFILES         .......................... A-1
APPENDIX B: USER CHARACERISTICS        . . . . . . . . . . . . . . . . . . . . . . . . . . . . B-1
APPENDIX C: ACKNOWLEDGMENTS       . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . C-1
                                          INTRODUCTION

PURPOSE

To describe adolescent steroid use from a user point of view; this includes use patterns
and trends, motivations and influences, effects, and awareness of health risks.

BACKGROUND

Anabolic-androgenic steroids ("steroids") are synthetic derivatives of the natural male
hormone testosterone. They were first used non-medically by elite athletes seeking to
improve performance. More recently, however, their use has filtered down to high
school and junior high school levels. For more detail, including a literature review,
expert interviews, statistics from the National Institute on Drug Abuse (NIDA), and
comparisons of the following findings with published studies, see the companion report
entitled Adolescent Steroid Use, OEI 06-90-01080.




OEI contracted three experts' in the field of steroids to conduct confidential
structured interviews with former and current steroid users. They interviewed 67
respondents who began using steroids before leaving high school, and were not over
the age of 25 at the time of the interview. These plus five anonymous telephone
interviews completed by OEI resulted in a total of 72 interviews. The findings below
are based on this non-random sample of 72 steroid users.

Interviewees came from ten states. Sixty-six respondents (92%) were male and six
were female. Fifty-five (76%) were current users and 17 former users. Twenty-six
(36%) were 18 years old or younger at the time of the interview. The average current
age of the respondents was 2OO2




       See Appendix C: Acknowledgments.
   2
       See Appendix B: User Characteristics for more detail.

                                                   1
Adolescent Users Combine Steroids, Take Large Dases, and Use More Intensely
Over mme.

Neariy all users take more than one stemid at a time.
Only two respondents did not "stack" (combine two or more) steroids during their last
"cycle" (episode of use). Eighty-two percent combined three or more steroids, while 30
percent used seven-or more. On average respondents used five steroids during their
last cycle.

       Table 1: Steroids Used by 10 or Mote Users During Their Last Cyde

         DepTestosterone      testosterone cypionate       injectable
         DecaDurabolin        nandrolone decanoate         injectable
         Anadrol              oxymetholone                 oral
         Winstrsl V           stanozolol                   veterinary, injectable
         Dianabol             methandrostenolone           oral
         Equipoise            boldenone undecyclenate      veterinary, injecteble
         Anavar               oxandrolone                  oral
         Sustanon 250         testosterone                 injectable
         Primobolan           methenolone                  oral
         Dianabol             methandrostenolone           injectable



Nearfy all use injectable stem*
All but one respondent used injectable steroids. In addition, 91 percent used oral
steroids.

Users take dcnres many times n o d them@                  la,&

Some users took nearly 30
times the maximum
                                                     Doses Far Exceed Therapeutic Levels
therapeutic dose of Deca-                    1,400
Durabolin (nandrolone
decanoate) during their last                 1,200




                                              -
                                       X
cycle. Depo-Testosterone is            g     1,OOo
the most popular drug,                 s
                                       $800
reported by 44 users,
followed by Deca-Durabolin             $
                                       -
with 43 users. Both of these           I3)

                                       =
are injectable steroids. Many          f 400
also used veterinary products                 200
during their last cycle, as                     0
shown in Table 1 above.
                                   I            W Maximum Therapeutic Median User   Highest User
Users Buy Steroids and Get Information from Several Sources.

C o ~ g y m r p l a ay role fw a majority of urers.

Users report one to five sources when asked about their current/most recent source of
steroids, averaging 2.2 sources per respondent. Commercial-gym-related sources were
mentioned by 63 percent of the respondents. Table 3 shows the main sources of
purchased steroids.



        --
       Table 3: Sources d Pmhased Steroids
        Where               Who
                                       Oneormorrrgym-bead#ures
                                              friendlathiete
                                              a 'gym dealer'
                                                                                     -by*
                                                                                         45
                                                                                         26
                                                                                         17
                                                                                                 (83%)
                                                                                                 (37%)
                                                                                                 (24%)
                                              gym personnel                               8      (11%)
        Heelth p l o h h m k           Oneormoreheanh~                                   27      (38%)
                                              pharmacist                                 22      (31%)
                                              veterinarian                               10      (14%)
                                              personal doctor                             3          (4%)
        Mail order                                                                       20
        Schod-related-                 Oneormorerchodrelstedaourw                        16      Ca%)
                                              school friendheammate                      15      (21%)
                                              school coach or team physician              1
        Other drug dealer                                                                 8      (11%)

                               Percentages based on the 71 respondents who answered this question.


One-quarter of all respondents sold steroids themselves at some time.

Users mrely receive fiee s&.micis on an ongoing baris.
Four respondents say they received free steroids on an ongoing basis. Three former
users each reported one source: school alumni, a school coach or trainer, and a gym
friendlathlete. One current user receives free steroids from a relative who is a
physician.

Usersget information on dmp and dosages from their stemid sowws and fiom printed
i&?mm

Commercial-gym-related people are a source of steroid information for nearly three-
quarters of the respondents. Many users also read printed information on steroids to
decide what and how much to take.
Respondents also gave several reasons relating to selfkteem and a p p v a l j b m others
which may be related to performance, appearance or both:

         53%      generally like self betterbe happier
         35%      friends were using
         18%      be more successful with the opposite sex
         11%      receive more approval from parents

Other (apparent) performance-related reasons for use:

         44%      competitors were using
         29%      improve ability to train harderlendurance
         24%      increase chances for a college athletic scholarship
         15%      be more aggressive
         15%      receive more approval from coachesltrainers
          6%      prevent injuries
          3%      recover from injuries




Eighty-five percent are influenced or motivated to use steroids by school
friendslteammates, gym friendslathletes, or other friends. In most cases the friend is a
user who has achieved the kind of results the respondent desires. In some instances
only the friend's advice is mentioned. The (commercial) gym friend may be an older
role model and not a peer in age. Respondents were free to mention more than one
influence. The personal influences mentioned by four or more users were:

      53%      gym friendlathlete             8%     brotherlsister
      40%      school friendlteammate         6%     other friends
      15%      non-school coacwtrainer        6%     personal doctor
      11%      gym personnel                  6%     school coacwtrainer

Famous role modelr also i n j h m e adokcem

Users also believe that many high-level athletes have used steroids, and say this
influenced them to start using. While 25 percent do not identify influences outside of
people they know personally, 57 percent point to "muscle" magazines, 42 percent to
famous athletes who (they believe) use, and seven percent to entertainment
personalities.

Users also give several indications that social acceptance and societal values are
reinforcing their motivations to use steroids. (See "Sxkty..." below, page 9.)
seeking, nearly all (97%) say those positive effects encouraged them to continue using
steroids. Many users report tremendous gains in weight, muscle mass, strength, muscle
definition and athletic accomplishment.

Some get very powerfd unqxctd "benejk"

Forty-three percent (31 of 72) report unexpected "benefits" from taking steroids.




Society rewadi mersfor the results they achieve;        a&uhs of peers and coaches fail       to
b u m g e stemid use.

Many current users agree with the following ~tatements:~

       93%       "Overall, people like the effects steroids have had on me."
       83%       'The improvements I achieved by using steroids made me more
                 popular."
       76%       "My friends, who don't use steroids, don't care if I use!'
       52%       "My parents probably lcnow that I use steroids."
       37%       "At my school winning is more important than good grades."

Sixty-one percent disagree with the statement, "My coaches really believe that steroid
use is a bad idea" (of 41 having coaches). For current users still of high school age
9 of 24 (38%) disagree.

Users noted both positive and neg&          social change5 since using stem&

Of the 24 current users who say they had more arguments or physical fights, half also
say they got along better with others; 21 are more satisfied with their life; 17 say
girlslguys liked them a lot more. Some note fights occur because others want to test


   3
       Percentages taken from the total respondents who answered each question, varying from 54 to 55.

                                                  9
Further, when asked about the physical changes a strong majority of users say each
reported change is a direct resuIt of taking steroids.

Users are somewhat aware of risks cited by e;r;pelts.

When asked if they can tell what experts say about steroids and health problems,
respondents most frequently volunteer the following:

       71%    liver disease                   45%       death
       56%    heart disease                   44%       sterility
       50%    cancer                          38%       kidney disease
       49%    shrinking of the testicles      38%       blood pressure problems
       49%    adverse personality changes     36%       stunted growth

Nowevet, 8 2 p c m t ofall aurenf users disagree with epm&aboutpotmtkdhedh
problems associa& with &mi&. In sharp w          m 16 of 17 fonner users agree with
ezperl;r.

Most urers base their opinions about hedh risks on &&personal expieme or on that
of others they know.

Reasons for disagreeing

Eighty-seven percent of         F$m4
those who disagree with
experts say they are not
experiencing health problems        Strongly Agree
themselves, and 80 percent
say other users they know
are not experiencing
problems. Only nine percent
qualify their answer by saying            Digree
that they are not
experiencing "serious"           Strongly Disagree
problems themselves, and
only four percent qualify                          0 5   10      15   20      25    30 35
their answers similarly for                            Number of Respondents (n=72)
others. Fifty-four percent
cite a lack of hard evidence,
and 39 percent suspect scare tactics on the part of experts. Over one-quarter point out
that experts were wrong before in saying that steroids didn't work.
Former Users Quit Because of Bad Effects They Experienced, Fear of Bad Effects,
and New Goals.

Former users (17) gave a number of reasons for quitting (some mentioning more than
one):

   8 experienced undesirable physical or psychological effects which they attribute to
     steroids
   8 were concerned about possible health risks
   8 noted a life change: not competing (or working out) any more, a change in
     goals, or a job-related decision
   7 feared becoming dependent
   5 said steroids cost too much
   3 failed to achieve the results they had hoped for
   2 feared being caught.

Disapproval of coaches and disapproval of parents were each mentioned by one
former user. One said steroids were difficult to get, and one quit because he was
"bored."

Profiles Show Many Users Are Mainstream student^.^

Because many steroid users are pursuing socially acceptable goals, they do not stand
out as belonging to a "drug subculture." As one interviewer reports, "By looking at
them you wouldn't know they were steroid users; in fact, if I didn't know, they look
like the kind of guys I'd like my daughter to date." This, plus the secretive nature of
steroid use, means that parents, coaches, peers and even teammates may not know
that someone close to them is a user. As one user notes, "When I started I thought I
was the only one at my school, but once I got bigger others started talking about it."




   4
       See Appendix A: Selected User Profiles for profiles of eight users.
                                      APPENDIX A

                             SELECTED USER PROFILES


The following are actual profiles of individuals interviewed for this project. They are
drawn from seven states. The names used are fictitious.


                                    All-American Guy

Phil was into football, and his successes would be the envy of many of his peers. At 15
he saw the progression of size, strength, and athletic ability (plus the scholarship
offers) of guys at the gym where he worked out. A friend there felt that steroids had
contributed a great deal to his improvements, so Phil started too.

Phil gained 25 lbs. in his sophomore year, his first year of use, and he displaced older
students for first string linebacker on the football team. He was bigger, faster, more
aggressive, and much stronger. He could bench press 185 in tenth grade, and 335
(strict form) by the end of high school. Phil says his grades improved, he gets along
better with others, he is more satisfied with life, he is more popular, and the girls like
him a lot more. Finally, he got a scholarship to college.

Phil's behavior has been strongly reinforced. He feels that winning was more important
than good grades at his school, and he doesn't believe that his coaches really thought
steroids were a bad idea. He also believes that steroid use is widespread, even
universal (at least at some time), among famous football players. He doesn't consider
his side effects (acne, bloated appearance, breast development, shrinking testicles) to
be serious, and disagrees with what experts say about the risks of steroids, though he's
not sure. At 19, he has no plans to stop, even if others do. He says he would stop if
you could convince him that steroids were really bad for him, but for now he believes
that he made a good decision when he started.


                                 "Living Proof (So Far)"

Steve had measured his gains in inches: 6" on his neck, 3" on each arm, 12" on his
chest. Now he says, "I'm living (so far) proof of the addictive nature. I was chemically
dependent as an adolescent, and 'roids are just as addictive!' Steve started using
steroids at 17, and used for about 23 cycles. In his heaviest cycle he combined 9
steroids, five of those injectable. Before steroids he had used alcohol, marijuana and
"uppers." He later added "downers," recreational drugs, estrogen inhibitors, blood
pressure regulators, and Human Growth Hormone. He experienced increased acne,
He did a lot of research on steroids before starting, "reading everything about it. I
weighed the good and the bad, and decided the bad wasn't all that bad if I didn't
abuse it." He has completed four seven-week cycles, using one oral and two injectables
during his last cycle. He went from about 160 (with training) up to 215 lbs. at 16 years
old after adding steroids. He had some trouble with aggressiveness at first, but once he
realized what was happening he said he could consciously keep it under control.

He says hell stop taking steroids when he's through with competitive bodybuilding,
confident hell "do just fine without them." At the time of the interview he was busy
mowing lawns around the neighborhood to earn enough money for his next cycle.


                                       Hooked?

Mike is a competitive bodybuilder who started using at 18. He was convinced to start
by a user at a commercial gym: "Once I saw him I thought, 'Here's the way to put
some size on."' Mike got the results he was after; he's gained 75 lbs. in the four years
since he started using, and has increased his bench press to 450 lbs. He says people
like the effects steroids have had on him, and that girls like him a lot more. He
strongly disagrees with experts' warnings about steroids, saying that he hasn't had
health problems and neither have other users whom he knows. Evidently Mike doesn't
feel that any of the physical changes he reported are "problems": acne, bloated
appearance, bone or joint pain, muscle pain, frequent urge to urinate, difficulty
sleeping, impotence, breast development and shrinking testicles. (He believes that any
bad effects of steroids go away when you stop using them.) Mike also reports
sometimes feeling very sad, and that he has seriously considered suicide since starting
to use steroids.

Mike is not without his doubts: he now feels that he did not make a good decision
when he started steroids. But he has no plans to stop, and in fact has decided to quit
using them before, only to start again. He says that if you could convince him that
steroids are really bad that he'd quit.


                               The 98-Pound Weakling

Joe was very serious about getting bigger. At 16, he's been taking steroids since he was
14. He's already completed 10 cycles. The last one was 16 weeks long, and he
"stackedt' three oral and six injectable steroids. He's continuing despite a number of
side effects, including emergency room treatment for high blood pressure.

Has it been worth it? Joe went from 98 lbs. to 185 lbs. in six months. He says that he's
definitely more popular and more satisfied with his life now. He participates in
football, swimming/diving, soccer, and competitive bodybuilding. He tried to quit using
steroids once but "couldn't." He now has no plans to stop.
                                APPENDIX B


                       User Characteristics

                 Respondents Were From 10 States




                       Current Age of Respondents

15 yrS old




             0     2        4         6        8    10   12
                            Number of Respondents
               Number of Drugs in Reported Cycle
                    3 Steroids - 14




                                                                8-10 Steroids -



                                               7 Steroids   -   8




                      Sports or Training Programs
                        Listed by Respondents
                        (Some respondents listed more than one.)

                                                  Number                Percent
           Weightlifting **                         39                   56.5%
           Football                                 32                   46.4%
           Bodybuilding *                           15                   21.7%
           Track and Field                          12                   17.4%
           Wrestling                                11                   15.9%
           Swirnming/Diiing                         10                   14.5%
           Powerlifting                             10                   14.5%
           BaseballISoftball                         5                    7.2%
           Soccer                                    5                    7.2%
           Basketball                                3                    4.3%
           Gymnastics                                3                    4.3%
           Cycling                                   2                    2.9%
           Hockey                                    2                    2.9%
           SkiingISkating                            1                    1.4%
           TennisBadminton                           1                    1.4%
 Competitive
** Nontompetitiie
                               ACKNOWLEDGMENTS


For revMving the discmion guides:

Drs. Linn Goldbe% Douglas McKeag, James Wright and Charles Yesalis reviewed the
user discussion guides and offered many helpful suggestions.

For wnhcthg b&n&wm

The following individuals conducted interviews with steroid users using the structured
discussion guides prepared by OEI. We appreciate their many hours of work.

Neil Carolan                             Mr. Carolan has extensive counseling experience
Vice President for Chemical              with adolescent steroid users.
Dependency Programs
Bry Lin Hospital
1263 Delaware Ave.
Buffalo, NY 14209

Mark Humbert, PhD.                       Dr. Humbert wrote his dissertation on the
3351 East "G"Street, #19 E               psychological effects of steroid use. He is
Ontario, CA 91764                        presently a staff psychologist for the Youth
                                         Training School at Chino. He is also a
                                         competitive bodybuilder.

James E Wright,PhD.                 ..   Dr. Wright has been a prominent researcher and
9001 Eames Street                        writer in the field of steroids for many years.
Northridge, CA 91324
